         Office Of Inspector General




February 15, 2006

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

GEORGE L. LOPEZ
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Postal Service Actions to Safeguard Employees From
         Hurricane Katrina (Report Number HM-AR-06-002)

This report presents the results of our self-initiated review of U.S. Postal Service actions
to safeguard employees from Hurricane Katrina (Katrina) (Project Number
06YG015HM000). Our objective was to determine whether employees were
safeguarded prior to the landfall of Katrina.

The President’s Council on Integrity and Efficiency tasked the Inspectors General
community with assuring appropriate oversight of financial and procurement processes
and operations regarding Katrina activities. As a result, the U.S. Postal Service Office of
Inspector General (OIG) established a task force comprised of auditors and investigators
to review the Postal Service’s Katrina activities. This report is the first of two the OIG
Human Capital Team will issue on actions to safeguard employees. This report
addresses the Postal Service’s actions to safeguard employees before Katrina made
landfall in the four districts affected: Alabama, Louisiana, Mississippi, and North Florida.
The second report will address Postal Service actions taken to safeguard employees
once Katrina made landfall.

We concluded the Postal Service took appropriate actions as described in the Integrated
Emergency Management Plans (IEMPs) and supplemental hurricane plans related to
effective notification to employees prior to Katrina’s landfall. We also found the Postal
Service identified lessons learned from other hurricanes, which helped them to
safeguard employees prior to Katrina’s landfall. As a result, Postal Service employees
were safeguarded and there were no reported injuries to employees prior to Katrina’s
landfall. We commend the Postal Service for its efforts, which exemplify that the safety
and health of Postal Service employees is of the utmost concern to management.
Postal Service Actions to Safeguard                                                               HM-AR-06-002
 Employees From Hurricane Katrina

Although we had no recommendations for management, they provided comments. The
Southeast Area vice president stated the report accurately presents the significant steps
taken to safeguard employees. The vice president also said the report offers the
Southeast Area an opportunity to reflect further on the actions that were taken during this
challenging and difficult time. Further, the vice president stated that, as the Southeast
Area plans for the upcoming hurricane season, they are incorporating the lessons
learned as captured in the report, as well as the results from the Postal Service’s After
Action Reviews and other planning meetings.

The Southwest Area vice president also stated the OIG report was accurate and that he
noted the New Orleans American Postal Workers Union (APWU) president was not
personally contacted regarding the efforts to safeguard employees prior to hurricanes.
He said management has corrected this procedure for future hurricanes/events.
Management’s comments have been incorporated into the report and are included in
their entirety in Appendix E.

                                                Background
IEMP and Supplemental Hurricane Plans

The Postal Service IEMP is a comprehensive plan used to prepare for, mitigate, respond
to, and recover from domestic emergencies that occur on Postal Service sites. The
IEMP consolidates facility stand-alone plans, which include the Continuity of Operations
Plan, Crisis Management Plan, Emergency Action Plan, and emergency-specific plans.
The IEMP also establishes emergency management teams and defines team roles and
responsibilities. The IEMP identifies the phases and stages of an emergency response
and responsibilities of the Emergency Management Team (EMT)1 during each phase
and stage. In addition, the IEMP identifies the public service addresses related to
hurricanes (such as warnings and watches).

The Postal Service hurricane plans and guides are emergency-specific plans facility,
district, and/or area operations use. The purpose of these plans is to provide procedures
and protocols to follow for the protection of Postal Service personnel, their families, and
all property and equipment of the Postal Service. The plans also provide for the safe
curtailment of Postal Service operations and evacuation of employees on- and off-duty,
as well as safeguarding the mail, facilities, and vehicles. Some plans include the phases
of a hurricane alert and the procedures to follow during all phases.

Definition of a Hurricane

A hurricane is an intense tropical weather system with winds reaching a constant speed
of 74 miles per hour (mph) or more. Hurricanes can produce widespread torrential rains
followed by floods and excessive rain can trigger landslides, mudslides, and flash


1
  EMT members include the emergency manager, safety officer, liaison officer, emergency operations section chief,
logistics section chief, and information officer.

                                                         2
Postal Service Actions to Safeguard                                               HM-AR-06-002
 Employees From Hurricane Katrina

flooding. Hurricane season in the U.S. is from June through November, while the peak
hurricane season is from mid-August to late October.

Hurricane Categories

The Saffir-Simpson Hurricane Scale is a 1-5 rating based on a hurricane's present
intensity. The scale is used to give an estimate of the potential property damage and
flooding expected along the coast from a hurricane landfall. Wind speed is the
determining factor in the scale, as storm surge values are highly dependent on the slope
of the continental shelf and the shape of the coastline in the landfall region. The
five classes of hurricanes are shown in Table 1 below:
Table 1: Saffir-Simpson Hurricane Scale

 Category               Winds – mph           Damage
 1                      74 to 95              Minimal: Damage to signs, unanchored mobile
                                              homes, trees, and power lines. There may be
                                              some coastal flooding. Central pressure will be
                                              28.94 inches or more and will be accompanied
                                              by a 4- to 5-foot storm surge of water.

 2                      96 to 110             Moderate: Damage to larger signs, roofs, doors,
                                              windows, mobile homes, small boats, and trees.
                                              There may be some flooding. Central pressure
                                              28.50 to 28.93 inches accompanied by a storm
                                              surge of 6 to 8 feet of water.

 3                      111 to 130            Extensive: Damage to buildings, walls, mobile
                                              homes, and trees. Flooding may wash away
                                              smaller coastal structures. Flooding inland of
                                              8 miles or more. Central pressure 27.91 to
                                              28.49 inches accompanied by a storm surge of
                                              9 to 12 feet of water.

 4                      131 to 155            Extreme: Almost total destruction of doors and
                                              windows. There will be some wall and roof
                                              failure. There will be major damage to lower
                                              floors of oceanfront buildings. Evacuations up to
                                              6 miles inland. Central pressure 27.17 to
                                              27.90 inches accompanied by a storm surge of
                                              13 to 18 feet of water.

 5                      155 or more           Catastrophic: Buildings, roofs, and structures are
                                              destroyed. Flooding up to 10 miles inland and
                                              evacuation of area needed. Central pressure
                                              27.17 inches or less accompanied by a storm
                                              surge of 18 feet or higher of water.

Source: U.S. Department of Commerce Natural Oceanic and Atmospheric Administration (NOAA)
(http://www.nhc.noaa.gov/aboutsshs.shtml).


                                                3
Postal Service Actions to Safeguard                                                                HM-AR-06-002
 Employees From Hurricane Katrina

Hurricane Katrina Timeline

Katrina created a tragedy that left hundreds of thousands of people without power, water,
or a way to communicate. It materialized into a Category 5 storm that affected and
caused damage in four states: Alabama, Florida, Louisiana, and Mississippi. The
following is a timeline of events/actions from the inception of Katrina to her landfall in
Alabama and Mississippi.

                    Date                                                     Event/Action

    August 23, 2005                             The U.S. National Hurricane Center issued a statement
    (Tuesday)                                   saying tropical depression twelve had formed over the
                                                southeastern Bahamas.
    August 24, 2005                             Tropical depression twelve was upgraded to Tropical
    (Wednesday)                                 Storm Katrina.
    August 25, 2005                             Katrina made its first landfall in Florida as a Category 1
    (Thursday)                                  hurricane.
    August 26, 2005                             The eye of Katrina was located offshore of southwestern
    (Friday)                                    Florida over the Gulf of Mexico, approximately 50 miles
                                                northeast of Key West, and was still classified as a
                                                Category 1 hurricane.
    August 27, 2005                             Katrina reached Category 3 intensity and moved closer
    (Saturday)                                  to the state of Louisiana.
    August 28, 2005                             Katrina reached Category 4 intensity at 12:40 a.m.
    (Sunday)                                    Central Daylight Time (CDT).
    August 28, 2005                             Katrina reached Category 5 intensity at 7:00 a.m. CDT.
    (Sunday)
    August 29, 2005                             Katrina made a second landfall at 6:10 a.m. CDT as a
    (Monday)                                    Category 4 storm near Buras, Louisiana, with winds near
                                                145 mph.
    August 29, 2005                             Katrina made a third landfall near Pearlington,
    (Monday)                                    Mississippi, at 10:00 a.m. CDT as a Category 3
                                                hurricane, with winds up to 125 mph. Another set of
                                                storms and hurricane winds stretched from near Biloxi,
                                                Mississippi, to the western most barrier islands along the
                                                state line of Alabama2 and Mississippi.
Source: Wikipedia website (http://en.wikipedia.org/wiki/Timeline_of_Hurricane_Katrina), November 15, 2005.


2
  Weather Underground article titled Hurricane Katrina – Cat 4 Hitting Gulfport/Biloxi Now, August 29 – 10:05 CDT
(www.wunderground.com/blog/SteveGregory/comment.html).

                                                          4
Postal Service Actions to Safeguard                                                                 HM-AR-06-002
 Employees From Hurricane Katrina

Postal Service Districts in the Path of Katrina

Katrina was predicted to significantly impact hundreds of Postal Service facilities and
thousands of employees in four districts in the Southeast and Southwest Areas of Postal
Service Operations. The numbers of facilities and employees in the Alabama, Louisiana,
Mississippi, and North Florida Districts are shown in Table 2:

Table 2: Total Numbers of Facilities and Employees in the Alabama, Louisiana,
Mississippi, and North Florida Districts
                  Postal Service                                           Numbers
    Area Operation              District                 Employees *                Facilities **
    Southeast                   Alabama                                   8,106                       693
    Southeast                   North Florida                             6,522                       332
    Southeast                   Mississippi                               5,064                       508
    Southwest                   Louisiana                                 8,230                       639
     Total                                                               27,922                     2,172
* Source: Web-Enabled Enterprise Information System as of January 3, 2006.
** Source: Southeast and Southwest facility postal Blue Pages as of January 3, 2006.

                             Objective, Scope, and Methodology

We conducted our review in the Alabama, Louisiana, Mississippi, and North Florida
Districts at the largest, hardest hit facility3 in each district. We discuss our objective,
scope, and methodology in detail in Appendix B.

                                         Prior Audit Coverage
We discuss our prior audit coverage in detail in Appendix C.




3
 The facilities we reviewed were the Gulfport Processing and Distribution Facility (P&DF); the Mobile, Alabama, Main
Post Office (MPO); the New Orleans Processing and Distribution Center (P&DC); and the Pensacola P&DC.

                                                          5
Postal Service Actions to Safeguard                                                                  HM-AR-06-002
 Employees From Hurricane Katrina

                                                Audit Results

We concluded the Postal Service took appropriate actions as described in the IEMPs
and supplemental hurricane plans related to effective notifications to employees prior to
Katrina’s landfall. We also found the Postal Service identified lessons learned from other
hurricanes, which helped them to safeguard employees prior to Katrina’s landfall. As a
result, Postal Service employees were safeguarded and there were no reported injuries
to employees prior to Katrina’s landfall. We commend the Postal Service for its efforts,
which exemplify that the safety and health of Postal Service employees is of the utmost
concern to management.

Employees Were Safeguarded

Prior to Katrina making landfall, Postal Service facilities in Alabama, Louisiana,
Mississippi, and North Florida Districts safeguarded employees from Katrina by
instructing them on actions to take regarding Katrina. They used notification mediums
such as the national emergency hotline number, local emergency numbers, public media
outlets, and internal safety talks.

The Postal Service relied primarily on its toll-free national emergency hotline number
(1-888-363-7462) to inform employees how to stay connected during Katrina. When
employees called the number, they were prompted to enter the first three digits of the
ZIP Code where they worked. A voice recording provided them information about facility
closings, changes in reporting times, and other workplace information specific to their
district. The districts were responsible for updating the messages specific to their
district.4

Also, the Alabama, Louisiana, Mississippi, and North Florida District managers
conducted teleconferences with facility officials to evaluate the need to shutdown
facilities and established messages for the national emergency hotline number. The
district managers also instructed emergency personnel to inform employees to continue
to monitor the emergency hotline and in some districts reminded employees that liberal
leave5 was in effect. In addition, the district emergency managers sent instructions to
the district leadership teams and the EMT based on information they obtained from
NOAA. For example, the Mississippi District Emergency Preparedness manager sent an
advisory on August 28, 2005, which discussed Katrina’s category level, wind speed,
position, cities the storm would affect, and the timeframes for the storm in those cities.

The Southeast Area acting manager, Operations Program Support, told us the North
Florida District used three weather sites to obtain information.6 He also said the State of



4
  On December 13, 2005, the OIG audit team called the toll-free number and entered the first three digits of a
Mississippi ZIP Code. The voice recording provided updated information regarding the status of facilities in the ZIP
Code area and other workplace information.
5
  Liberal leave allows employees to take annual leave without prior authorization from their supervisor.
6
  The three websites were www.crownweather.com, www.weather.com, and www.nrlmry.navy.mil.

                                                           6
Postal Service Actions to Safeguard                                                              HM-AR-06-002
 Employees From Hurricane Katrina

Florida Emergency Operations Center (EOC) website, www.floridadisaster.org, was
monitored7 for information.

The Mobile MPO management notified employees 72 hours before Katrina made landfall
in Alabama on August 28, 2005. The Gulfport P&DF and the New Orleans P&DC
management notified employees at least 96 hours before the hurricane made landfall on
August 29, 2005. Also, plant management at the Gulfport P&DF, the Mobile MPO, and
the New Orleans P&DC shut down all operations approximately 24 hours before Katrina
made landfall. There were 166 employees in the Gulfport P&DF, 55 in the Mobile MPO,
and approximately 1,300 in the New Orleans P&DC who were released from work or told
not to report to work before Katrina made landfall. (For a timeline of actions at the New
Orleans P&DC, see Appendix D.)

The APWU president for Mobile, Alabama, stated the Alabama District notified
employees about Katrina through the national hotline number and local television
stations. However, he stated the district did not inform him about their efforts to
safeguard employees prior to Katrina’s landfall. The APWU local president for
New Orleans, Louisiana, stated he thought the Postal Service did a fantastic job of
communicating with employees before, during, and after Katrina. However, he stated
Louisiana District officials did not contact him prior to Katrina concerning the district’s
efforts to safeguard employees prior to Katrina’s landfall.8 The Mississippi National
Postal Mail Handlers Union (NPMHU) president stated he was not aware of any
concerns about safeguarding employees prior to Katrina’s landfall. In addition, the
NPMHU state representative for Mississippi stated the Postal Service notified employees
in their district prior to Katrina about the status of Postal Service facilities through the
local television and radio stations.

Employees’ Concerns

Two employees in the Mississippi District expressed concerns to the OIG9 that some
employees were not safeguarded from Katrina on August 29, 2005, and their lives were
put in danger. One of these employees was a local area APWU president who stated
the Postal Service notified employees by way of the national emergency hotline number
to report to work, even though Katrina had made landfall. The APWU president said the
hotline message told employees in one ZIP Code area to report to work up until at least
2:00 p.m., even though Katrina had made landfall around 6:00 a.m. The president also
said after 2:00 p.m. the message stated, “all circuits are currently busy.” The other
employee contends that while emergency management and law enforcement were
advising everyone to seek shelter in this ZIP Code area, the Postal Service was
mandating that its employees report for work.



7
  According to the Southeast Area acting manager, Operations Program Support, the Florida EOC website provided
information on mandatory evacuations and current updates on the storm and emergency response.
8
  See the Corrective Action section for the Southwest Area Manager of Operations’ response to us regarding how the
area will communicate with the APWU local president in New Orleans, Louisiana, in the future.
9
  Letters were also written to Senator Thad Cochran and Congressman Gene Taylor.

                                                         7
Postal Service Actions to Safeguard                                                              HM-AR-06-002
 Employees From Hurricane Katrina

According to the Mississippi District Human Resources manager, they made the decision
to open or close certain facilities/offices in Mississippi ZIP Code areas as early as
possible on August 28 and August 29, 2005. The manager said they based decisions on
Katrina weather reports and phone calls to the local and state emergency management
offices and local law enforcement offices. The manager also said that, although some
facilities remained open and management asked employees to report to work, if
employees called and requested leave because they could not make it or asked to leave
work, management approved their requests to meet the needs of their individual
situations.

The manager also told us that as August 29, 2005, progressed, it became evident
Katrina was going to be worse than expected and that some facility managers called the
district office advising that Katrina was adversely affecting their facility and they were
going to close down and send employees home. The manager said the district manager
concurred in every instance with local facility managers regarding the closing of their
facilities.

Postal Service policy10 states emergency managers should evaluate the need to
shutdown or evacuate the building based on information they receive from the radio
public service addresses and information provided by the NOAA. Policy also states
emergency managers should instruct employees to proceed to another installation or go
home. In addition, it states the safety officer should conduct a safety talk regarding the
appropriate hurricane safety procedures.

Additionally, Postal Service supplemental hurricane11 plans and booklets instruct
employees to listen to local radio stations for information concerning the emergency and
follow instructions that pertain to “Postal Employees” only. These plans and booklets
also state the Postal Service should notify employees of conditions in person, via the
telephone message line, employee/emergency hotline, or public media outlets.

The Postal Service’s decision to open and close certain facilities in the Alabama,
Louisiana, and Mississippi Districts represented appropriate action as described in the
IEMP and supplemental hurricane plans. In addition, allowing employees to take leave
ensured they were able to make choices about what was best for them given where they
lived and worked and the unpredictable path of Katrina. We believe the Postal Service
took the appropriate action in this case.




10
   IEMP, Production Version 1.2, Installations and Districts, Annex 2D: Hurricanes, March 2004.
11
   The plans we reviewed were the U.S. Postal Service (USPS) Alabama District Hurricane Plan and Standard
Operating Procedures, June 1, 2005; USPS North Florida Hurricane Emergency Management Plan, 2005; Louisiana
District Hurricane Guide, 2005; Gulfport P&DF Hurricane Preparedness Plan for USPS Southeast Area Offices
395 and 396, 2004/2005; and the Southeast Area Hurricane/Tropical Storm Procedure, June 1, 2005. The booklets
we reviewed are the USPS Mobile Alabama, Hurricane Preparedness Information, June through November 2004; and
the USPS North Florida District, Hurricane Preparedness Information, June through November. Management initially
finalized and mailed the USPS North Florida District, Hurricane Preparedness Information to employees in May 2005.

                                                        8
Postal Service Actions to Safeguard                                                       HM-AR-06-002
 Employees From Hurricane Katrina

Corrective Action

The Southeast and Southwest Area vice presidents told us one area they can always
improve on is communications. They said on November 3, 2005, the Southwest Area
and headquarters’ Office of Emergency Preparedness hosted a Hurricanes Katrina and
Rita Lessons Learned/After Action Review Meeting. According to the Southeast Area
acting manager, Operations Program Support, the Southeast Area participated in the
meeting.

The Southwest Area vice president said another meeting is tentatively set for March 14-
15, 2006, in Dallas, Texas. The purpose of this meeting is to follow-up on the gaps
identified at the previous meeting and to prepare for the next hurricane season.
Involvement of both planning and operational personnel will ensure they develop and
implement a coordinated set of operations, plans, and procedures for response
readiness and continuity of Postal Service operations. Planning and operational
personnel will consist of individuals who were involved in the hurricane response and
recovery efforts and/or subject matter experts in the functional areas listed below:

           •    Business Service Network                        •   Category Management Center
           •    Delivery Programs                               •   Distribution Networks
           •    Facilities Service Office                       •   Finance
           •    Human Resources                                 •   In-Plant Support
           •    Maintenance                                     •   Marketing
           •    Public Affairs & Communication                  •   Safety
           •    Security

The Southwest Area vice president also told us it was important to know that the local
APWU president in New Orleans was concerned that he was not contacted personally
prior to Katrina concerning the district’s efforts to safeguard employees prior to landfall.
He told us that management has since corrected the procedure for notifying the
president prior to the arrival of a hurricane.

According to the Southeast Area acting manager, Operations Program Support, on
October 20, 2005, the Southeast Area manager, Operations Support, convened an After
Action Review, which included key Southeast Area employees involved in hurricane
preparedness and response and recovery actions. The acting manager told us the
Southeast Area manager, Emergency Preparedness, facilitated the review. The purpose
of the review was to assess the Southeast Area’s preparation, response, and recovery
from the hurricanes that occurred in late August 2005 and early September 2005.
According to the acting manager, they provided copies12 of the After Action Review to
headquarters, Emergency Preparedness, and the Southeast Area manager, Emergency
Preparedness, used the review results during his November 3, 2005, presentation at the
After Action Review meeting in Dallas, Texas.



12
     A copy of the After Action Review was also provided to the OIG.

                                                            9
Postal Service Actions to Safeguard                                                              HM-AR-06-002
 Employees From Hurricane Katrina

Lessons Learned on Notifying/Safeguarding Employees

One Postal Service official told us they learned one lesson from Katrina and three other
officials implemented lessons during Katrina that they learned from Hurricanes Dennis13
and Ivan.14 The New Orleans P&DC senior plant manager told us they learned from
Katrina to increase the frequency of information sharing to ensure points-of-contact and
addresses for employees are kept up to date. The North Florida District manager,
Emergency Preparedness, told us he learned from Hurricane Dennis to notify employees
about impending hurricanes earlier and to update the employee hotline more often. The
Mobile MPO postmaster said they learned from Hurricane Ivan to notify employees of
Katrina days before her landfall. The Alabama District Emergency Preparedness
manager told us they learned from Hurricane Ivan to let each facility make decisions
about what is best for its employees. For example, the Alabama District Office is located
in Birmingham, Alabama, 257 miles inland from Mobile. Mobile, however, is located
approximately 144 miles east of New Orleans, Louisiana. Since Mobile was in the
immediate path of Katrina, its position made the officials in Mobile the more appropriate
decision makers.

The Alabama District Emergency Preparedness manager told us they shared lessons
learned from hurricanes during service talks and cluster meeting presentations and via
the district’s website. The Alabama District Operations Programs support manager
stated after the EOC15 closes, the EMT meets to discuss lessons learned to determine
how they can better support operations managers. The North Florida District Emergency
Preparedness manager stated they shared lessons learned by using postings, stand-
up/service talks, teleconferences, and e-mails, which are communicated throughout the
district. They also solicit input from employees and management. The Southeast Area
Emergency Preparedness manager meets with all the districts in the Southeast Area to
discuss lessons learned. These lessons are shared with all districts in the Southeast
Area and are added to emergency plans, service talks, and postings.

The Postal Service’s supplemental hurricane plans facilitated the safeguarding of
employees. The plans contained specific instructions on what management and
emergency personnel should do, who to contact, and what and when precautions should
be taken in the event of a hurricane. As a result, employees were safeguarded from
Katrina. The OIG’s comprehensive report on the Postal Service’s Emergency
Preparedness – Hurricane Katrina will assess the adequacy of these plans and the
IEMP.




13
   Hurricane Dennis affected Florida and Alabama as a Category 3 storm on July 10, 2005.
14
   Hurricane Ivan came ashore in Alabama on September 16, 2004, as a Category 3 storm and later affected Florida,
Louisiana, and Texas as a tropical storm.
15
   The EOC is the physical location that serves as the Postal Service’s single focal point for the management of
information, decision-making, and resource support/allocation during the entire disaster management and recovery
process.

                                                        10
Postal Service Actions to Safeguard                                         HM-AR-06-002
 Employees From Hurricane Katrina

Management’s Comments

Although we had no recommendations for management, they provided comments. The
Southeast Area vice president stated the report accurately presents the significant steps
they took to safeguard employees. The vice president also said the report offers the
Southeast Area an opportunity to reflect further on the actions taken during this
challenging and difficult time. Further, the vice president stated that, as the Southeast
Area plans for the upcoming hurricane season, they are incorporating the lessons
learned as captured in the report, as well as the results from the Postal Service’s After
Action Reviews and other planning meetings.

The Southwest Area vice president also stated the OIG report is accurate. Finally, he
noted the New Orleans APWU president was not personally contacted regarding the
efforts to safeguard employees prior to hurricanes, and that management has corrected
this procedure for future hurricanes/events. Management’s comments have been
incorporated into the report and appear in their entirety in Appendix E.

We appreciate the cooperation and courtesies provided by your staff. If you have
questions or need additional information, please contact Chris Nicoloff, director, Human
Capital, or me at (703) 248-2300.
    E-Signed by Mary Demory
 ERIFY authenticity with ApproveI



Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc: Douglas A. Tulino
    John R. Mularski
    James A. Daily
    Mary A. Richards
    Anthony J. Ruda
    Harold L. Swinton
    Samuel M. Pulcrano
    Steven R. Phelps




                                            11
Postal Service Actions to Safeguard                                    HM-AR-06-002
 Employees From Hurricane Katrina

                          APPENDIX A. ABBREVIATIONS
     APWU            American Postal Workers Union
     CDT             Central Daylight Time
     ELM             Employee and Labor Relations Manual
     EMT             Emergency Management Team
     EOC             Emergency Operations Center
     GAO             Government Accountability Office
     IEMP            Integrated Emergency Management Plan
     mph             Miles Per Hour
     MPO             Main Post Office
     NOAA            National Oceanic and Atmospheric Association
     NPMHU           National Postal Mail Handlers Union
     OIG             U.S. Postal Service Office of Inspector General
     P&DC            Processing and Distribution Center
     P&DF            Processing and Distribution Facility
     USPS            U.S. Postal Service




                                            12
Postal Service Actions to Safeguard                                                                   HM-AR-06-002
 Employees From Hurricane Katrina

               APPENDIX B. OBJECTIVE, SCOPE, AND METHODOLOGY

Our overall objective was to determine whether employees were safeguarded prior to the
landfall of Katrina.

We reviewed the actions taken to safeguard employees before Katrina made landfall in
late August 2005. We conducted our review in the Alabama, Louisiana, Mississippi, and
North Florida Districts at the largest, hardest hit facility in each district. These facilities
are the Gulfport P&DF, the Mobile MPO, the New Orleans P&DC, and the Pensacola
P&DC. In addition, we reviewed OIG hotline complaints and congressional inquiries
from two employees in the Mississippi District. We also coordinated with Postal Service
Headquarters representatives to determine the number of employees and facilities
impacted per district.

We interviewed district officials and facility representatives to determine management
actions taken to safeguard employees, obtain timelines, and determine lessons learned
from Katrina and prior hurricanes regarding safeguarding employees. We obtained the
hurricane plans implemented before Katrina for the districts and facilities we reviewed.
We reviewed the IEMP and supplemental hurricane plans to assess whether the plans
described actions to safeguard employees from Katrina. However, we did not review the
extent to which the plans in their entirety complied with the IEMP. We will address that
in the OIG’s comprehensive report on the Postal Service’s Emergency Preparedness -
Hurricane Katrina.

In addition, we reviewed the Employee and Labor Relations Manual (ELM) and other
guidance as applicable. We interviewed local union representatives16 to assess their
knowledge of emergency preparedness policies, procedures, and practices related to
issues that occurred before Katrina. We also interviewed Postal Service officials and
management at headquarters and the area levels to get their perspectives on Katrina.

Tests of Internal Controls

We performed tests of internal controls on the Postal Service’s toll-free national
emergency hotline number (1-888-363-7462). We entered the first three digits of a
Mississippi ZIP Code and obtained updated information regarding the status of facilities
and other workplace information for the Mississippi District. We also reviewed the
information the emergency managers used to notify employees of Katrina, which was
based on information provided by the NOAA. In addition, we reviewed supplemental
hurricane plans and booklets for the four districts and facilities selected to ensure the
plans and booklets included the emergency facility contact names, public media outlets’
names and numbers, and local or national emergency hotline numbers that management
and emergency personnel should use.


16
 The union representatives were the APWU president for Mobile, Alabama; the APWU local president for New
Orleans, Louisiana; the NPMHU state president for Mississippi; and the state representative for Mississippi. These
were the unions that filed grievances for employees related to the aftermath of the Katrina and not prior to Katrina.

                                                           13
Postal Service Actions to Safeguard                                    HM-AR-06-002
 Employees From Hurricane Katrina

We conducted this audit from November 2005 through February 2006 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials and included their comments
where appropriate.




                                         14
Postal Service Actions to Safeguard                                                                HM-AR-06-002
 Employees From Hurricane Katrina

                            APPENDIX C. PRIOR AUDIT COVERAGE
     We identified the following prior audits relative to notifying and safeguarding employees
     from Katrina.

     Hurricane Katrina, Providing Oversight of the Nation’s Preparedness, Response, and
     Recovery and Activities (Report Number GAO-05-1053T, dated September 28, 2005).
     The report stated past Government Accountability Office (GAO) work noted
     government programs relating to preparing for, responding to, and recovering from
     natural disasters such as Hurricane Katrina needed improvement. It further stated past
     work on telecommunications issues found that first responders are challenged by a
     lack of interoperable emergency communications. Past work on preparedness
     identified improvements needed in a number of areas including efforts related to
     natural disasters and all hazards; planning preparedness efforts; setting goals and
     measures; providing training, exercise, evaluations, and lessons learned to first
     responders; and flood control and protection. The GAO did not issue any findings.

     Audit of Postal Inspection Service’s Emergency Preparedness (Report Number SA-AR-05-
     001, dated January 5, 2005). The report presents the results of the OIG’s audit on
     emergency preparedness. It stated the IEMP was established on January 13, 2004, in
     response to Homeland Security Presidential Directive 5.17 The IEMP is one plan for the
     Postal Service to mitigate, prepare, respond, and recover from any natural disaster or
     man-made hazard. The IEMP establishes a standardized emergency management
     process that has incorporated Postal Service incident-specific and planning efforts into a
     single comprehensive document that will serve as the core guide for emergency
     management. Under the IEMP, the Postal Inspection Service will function as a liaison with
     both Postal Service and external law enforcement officials during an emergency and as
     incident commander for certain emergencies involving a criminal investigation. The report
     stated the Postal Inspection Service was involved in developing the Postal Service IEMP.
     It stated the EMTs and the Postal Inspection Service have taken action to improve
     external outreach with local first responders, public health agencies, and law enforcement.
     However, it also stated the Postal Inspection Service’s current emergency plans need
     revision. It stated application of emergency preparedness guidance may not be consistent
     from Postal Inspection Service division-to-division and incident-to-incident because of the
     many contingency plans that currently exist. It stated a comprehensive IEMP would
     incorporate all the emergency plans.




17
  Under Homeland Security Presidential Directive 5, all federal departments and agencies, including the Postal
Service and Postal Inspection Service, are required to adopt a comprehensive plan addressing all hazards.

                                                         15
Postal Service Actions to Safeguard                                                                HM-AR-06-002
 Employees From Hurricane Katrina

     APPENDIX D. TIMELINE OF ACTIONS AT THE NEW ORLEANS P&DC
The following timeline describes the New Orleans P&DC management actions taken to
safeguard employees before Katrina made landfall:

 Date                                   Event/Action

 August 24, 2005                        Katrina entered the Gulf of Mexico as a Category 1 storm. The
 (Wednesday)                            New Orleans P&DC activated the EOC which met once or
                                        twice a day with the district manager and postmasters. The
                                        EOC began advertising the emergency telephone numbers in
                                        the Postal Service NEWSBREAK18 and informed employees
                                        about liberal leave.

 August 25 – 26, 2005                   P&DC management held teleconferences with the district
 (Thursday and Friday)                  manager, plant managers, and other emergency personnel to
                                        discuss actions that should be taken to safeguard employees
                                        and facilities.

 August 27, 2005                        The district manager and senior plant manager continued to
 (Saturday)                             hold teleconferences and decided operations would be shut
                                        down the next day. Late that night, they began the process of
                                        shutting down equipment and locking doors in the P&DC.

 August 28, 2005                        The P&DC management shut down completely at 10 a.m. The
 (Sunday)                               P&DC management started advertising emergency phone
                                        numbers on the radio and television. The P&DC management
                                        also utilized the last known address and sent out letters to
                                        employees based on information from human resources.

 August 29, 2005                        The district manager and the EMT met in Alexandria,
 (Monday)                               Louisiana, and reestablished the EOC. They continued to
                                        advertise the toll-free emergency hotline number (1-888-363-
                                        7462) on radio, television, and newspapers. They issued
                                        administrative leave19 to all employees. Katrina made landfall
                                        and they decided to implement actions described in the IEMPs.




18
   A Postal Service “NEWSBREAK” is a one-page announcement used to report the status of emergencies. It is sent
via e-mail or facsimile or printed and posted on bulletin boards.
19
   ELM 17.11, Section 519.1, dated July 7, 2005, defines administrative leave as “an absence from duty authorized by
appropriate Postal Service officials without charge to annual or sick leave and without loss of pay.”

                                                         16
Postal Service Actions to Safeguard                     HM-AR-06-002
 Employees From Hurricane Katrina

                    APPENDIX E. MANAGEMENT’S COMMENTS




                                      17
Postal Service Actions to Safeguard        HM-AR-06-002
 Employees From Hurricane Katrina




                                      18
